HHS/OIG, Audit -"Review of Medical Claims Made to Medicaid for Beneficiaries Under the Age of 21 Who Reside in Institutions for Mental Diseases Within the State of Texas,"(A-06-03-00009)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medical Claims Made to Medicaid for Beneficiaries Under the Age of 21 Who Reside in Institutions for
Mental Diseases Within the State of Texas," (A-06-03-00009)
September 9, 2003
Complete
Text of Report is available in PDF format
(311 KB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report is one of a series of reports involving our multi-state initiative
focusing on claims to Medicaid for residents of institutions for mental diseases (IMD).  The objective of the review
was to determine if controls were in place to preclude the Texas department of Health from claiming Federal financial
participation under the Medicaid program for medical services, except inpatient psychiatric services, provided to IMD
residents under the age of 21.  We found that, for the period September 1, 1997 through August 31, 2000, the Texas
Department of Health improperly claimed Federal funds for medical services provided to IMD residents under the age of
21.  As a result, Federal funding totaling $1,290,047 was improperly claimed.  Texas Department of health officials
disclosed that there were neither edits nor mechanisms within its fiscal agent's Medicaid Management Information System
to detect and prevent this problem.  In addition to financial adjustments, we recommended the implementation of
appropriate edits and other procedural corrections.